4
\

C@OCKLE

. E-Mail Address:
Le ga I Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1523

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-67

UNITED STATES OF AMERICA,
Petitioner,
v.
EVELYN SINENENG-SMITH,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
CITY AND COUNTY OF SAN FRANCISCO, CALIFORNIA; CITY OF BOULDER,
COLORADO; CITY OF CHICAGO, ILLINOIS; COUNTY OF EL PASO, TEXAS; AND 29
CITIES, COUNTIES, AND MUNICIPAL ORGANIZATIONS IN SUPPORT OF RESPONDENT
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4788 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of January, 2020.
] am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : Lu Qudraw-
My Commission Expires Nov 24, 2020 a .

Notary Publie Affiant 39087

 

 
